1?
■*

No.

in--131
In the

-SUPREME^G©mMfUi^=UNITED STATES^

JOHN L. CORRIGAN, SR.
Petitioner,
V.

GRANT COUNTY, a municipal corporation;
D. ANGUS LEE; PATRICK SCHAFF;
JANIS WHITENER-MOBERG;
BRIAN D. BARLOW; JOHN A. ANTOSZ,
and TIMOTHY KRON
Respondents.

On Petition For Writ Of Certiorari To
The Supreme Court of the State of Washington

PETITION FOR WRIT OF CERTIORARI

JOHN L. CORRIGAN, SR.
51 NE Blomlie Rd / Box 1846
Belfair, WA 98528
Pro Se
253.350.0790
jcorrigan25@outlook.com

FILED
SEP 2 8 2020
°nPRFEMEFCTOURTLURSK,

11

QUESTIONS PRESENTED
.:;r—

Trial court granted stay of discovery for Motion to Dismiss only - stay not
available for Summary Judgment. Motion to Dismiss was granted without
conversion and appealed. Court of Appeal sua sponte claimed conversion to
summary judgment -without explanation - and summarily dismissed appeal on
summary judgment grounds.
Was Corrigan’s U.S. Constitutional Fifth Amendment right to due process
violated by Court of Appeals when:
a. The appellate court sua sponte determined that a conversion took place, ruled
on summary judgment grounds, and summarily dismissed the case?
b. The appellate court dismissed on summary judgment conversion when there
was no discovery, no opportunity to respond, and no reasonable opportunity
to present material pertinent to the summary judgment determination?

PARTIES TO THE PROCEEDING
Petitioner John Louis Corrigan was the plaintiff in the Washington
State Superior Court proceedings and appellant in the Washington State Court of

Ill

Appeals proceedings. Respondents Grant County, D. Angus Lee, Patrick Schaff,
Janis Whitener-Moberg, Brian Barlow, John Antosz and Timothy Kron were
defendants in the superior court proceedings and respondents in the appellate court
proceedings.
RELATED CASES
•

Corrigan v. Grant County, No. 16-2-00254-7, Superior Court of Washington for
Kittitas County, Order Granting Defendants Grant County Motion for
Dismissal Pursuant to CR 12(b)(6), July 11, 2018.

•

Corrigan v. Grant County, No. 16-2-00254-7, Superior Court of Washington for
Kittitas County, Order Granting Defendant Timothy Kron’s Motion for
Dismissal, July 11, 2018.

•

Corrigan v. Grant County, Court of Appeals of the State of Washington,
Division III, No. 36244-2-III, Unpublished Opinion, November 26, 2019 John Corrigan appeals the trial court’s CR 12(b)(6) order dismissing his
amended complaint. Because the trial court considered matters outside
the pleadings, we review the trial court’s order as if it were a CR 56 order
granting summary judgment. Applying that standard, we affirm.

•

Corrigan v. Grant County, The Supreme Court of Washington, No. 98133-7,
Order, that petition for review is denied, April 29, 2020.

IV

TABLE OF CONTENTS

QUESTIONS PRESENTED

li

PARTIES TO THE PROCEEDING

11

RELATED CASES

m

TABLE OF CONTENTS

IV

APPENDIX
TABLE OF AUTHORITIES

v
vi

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

2

Unique Jurisdiction Issues for Review of U.S. Supreme Court

2

U.S. Constitutional Issues Presented to State Courts

2

Washington State Has No Independent nor Adequate State Law Claim

3

PERTINENT CONSTITUTIONAL AND STATUTORY PROVISIONS

4

INTRODUCTION AND STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

6

BLACK LIVES MATTER
U.S. Supreme Court - Heck v. Humphrey

6
6

V

7

_____.Ninth Circuit Court - Brooks v. City of Seattle
The Actions of The Court of Appeals is a Fraud on the Court

8

COA CLAIMED CONVERSION IS AN ABUSE OF DISCRETION

11

DENIED 5th -AMENDMENT RIGHT. TO DUE PROCESSTDF LAW

12__
13

CONCLUSION

APPENDIX
Unpublished Opinion, Washington State Court
of Appeals, Division III (November 26, 2019)
App. 1
Order Denying Motion for Reconsideration,
Washington State Court of Appeals, Division
III (December 31, 2019)........................................ App. 10
Order Granting (Grant County Defendants).. . .
Motion for Dismissal Pursuant to CR 12(b)(6),
Kittitas County Superior Court (July 11, 2018)
App. 11
Order Granting Defendant Kron’s Motion for
Dismissal, Kittitas County Superior Court
(July 11, 2018)....................................................... App. 13
Order (denying review), The Supreme Court of
App. 15
Washington, (April 29, 2020)
Transcript Excerpt, Verbatim Report of
Proceedings, Kittitas County Superior Court
(June 18, 2018)....................................................... App. 16
Appellant’s Motion For Reconsideration,
Washington State Court of Appeals, Division
III (December 16, 2019).................................... App. 18

VI

TABLE OF AUTHORITIES
Cases
7

Brooks v. City of Seattle, 599 F.3d 1018 (9th Cir. 2010)

12

Celotex Corp. v. Catrett, 477 U.S. 317 (1986)
CoherTirLongshore, 62 l~F:3d~13 lT'(10th' Cirr2010)

-7-

Heck v. Humphrey, 512 U.S. 477 (1994)

6

In Bulloch v. United States, 763 F:2d 1115 (10th Cir. 1985)

8
12

Parada u. Banco Industrial De Venezuela, C.A., 753 F.3d 62 (2d Cir. 2014)

9

Swedberg v. Marotzke, 339 F.3d 1139, 1142 (9th Cir. 2003)
U.S. ex rel. Customs Fraud Investigations, LLC. V. Victaulic Co., 839 F.3d 242 (3rd

12

Cir. 2016)
Statutes
28 U.S.C. § 1257

2

42 U.S.C. § 1983

4, 5

Other Authorities
35 Case W. Res. L. Rev. 1 (1884)

4

3A Wash. Prac., Rules Practice CR 12 (6th ed.), Washington Practice Series TM.... 3
Federal Civil Rules Handbook, Baicker-McKee, Janssen, Corr, © 22019 Thomson
Reuters/W est

11

Police Misconduct: Law and Litigation, 3d Edition, © 2015 Thomson Reuters

7

Verbatim Report of Proceedings from an Audio File

9

Vll

Rules
CR 12(b)(6)

passim

CR 56

Passim
12

FRCP Rule 12(d)
RAP. 12.1...........
Rule on Appeal (RAP) 9.12

• *.*

«»»»»■«

........ 10
9

Constitutional Provisions
Fifth Amendment
Fourteenth Amendment

passim
2

1

PETITION FOR A WRIT OF CERTIORARI
John Louis Corrigan, Sr. petitions for a writ of certiorari to review the
judgment of the Washington State Supreme Court in this case.
OPINIONS BELOW

-

The Order of the Washington State Supreme Court denying petition for review
dated April 29, 2020, is unreported and reproduced at App. 15.
The Washington Court of Appeals, Division III, Order Denying Motion for
Reconsideration dated December 31, 2019, is unreported and reproduced at App. 10.
The Washington Court of Appeals, Division III Unpublished Opinion dated
November 26, 2019, affirming the trial court’s CR 12(b)(6) order as if it were a CR 56
order and granting summary judgment and reproduced at App. 1-9.
The Order Granting Grant Co. Defendants Motion for Dismissal Pursuant to
CR 12(b)(6) dated July 11, 2018, is unreported and reproduced at App. 11.
The Order Granting Defendant Kron Motion for Dismissal Pursuant to CR
12(b)(6) dated July 11, 2018, is unreported and reproduced at App. 16-17.

2
JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).
Unique Jurisdiction Issues for Review of U.S. Supreme Court
A. U.S. Constitutional Issues Presented to State Courts
The Court of Appeals (COA) Motion to Reconsider is the first opportunity
Petitioner had to address the U.S. Constitutional issues. Prior to that time, there was
nothing out of the ordinary at the trial court level. Only when the COA — without any
warning — jumped the tracks and erroneously claimed that the CR 12(b)(6) motion
was converted to a CR 56 motion did either court interferer with Petitioner’s due
process - U.S. Constitutional rights. This conversion was a complete surprise, could
not be anticipated, and totally contrary to law - by denying Corrigan due process of
law under the Fifth Amendment.1
a. Petitioner’s Motion to Reconsider at Court of Appeals
This Court Is Violating Appellant’s Sixth Amendment Right To A Fair Trial
Under The U.S. Constitution And His Fifth Amendment Right To Due Process
Under The U.S. Constitution — Both Through The Fourteenth Amendment To
The U.S. Constitution. Based on the court relating to violations of CR 12(b)(6),
Appellant is denied a fair trial and a right to due process under the Fifth and
Sixth Amendments to the U.S. Constitution applicable to the states under the
Fourteenth Amendment.
Motion to Reconsider, p. 8.

1 The trial court granted a stay of discovery for the limited purpose of allowing
defendants to seek a CR 12 motion to dismiss. Any conversion action was completely
contrary to the trial court’s decision relating to the stay of discovery - which was
within the sound discretion of the trial court judge.

3

b. Petitioner’s Petition for Review - Washington State Supreme Court.
THeTCourt’ Should Accept Review Because The Court Of Appeal's Denial Of The.
Petitioner’s Motion For Reconsideration Violated Due Process Of Law When The
COA Converted -Sua Sponte -A CR 12(b)(6) Motion To A CR 56 Motion Without
Notice, Opportunity To Respond, Or Discovery And Thus Involves Significant
Questions Of Law Under The 5th And 14th Amendments To The Constitution
jQLTheJLInited States And The Washington State Constitution, Article I § 4.
RAP_2.5(a).(3h
Petition for Review, p. 9.
B. Washington State Has No Independent nor Adequate State Law
Claim.
The conversion rule in Washington Rules of Civil Procedure (CR) 12(b)(6) to a
CR 56 Summary Judgment emanates directly from the Federal Rules of Civil
Procedure FRCP 12(b)(6).2
. . . If, on a motion asserting the defense numbered (6) to dismiss for failure
of the pleading to state a claim upon which relief can be granted, matters outside the
pleading are presented to and not excluded by the court, the motion shall be treated
as one for summary judgment and disposed of as provided in rule 56, and all parties
shall be given reasonable opportunity to present all material made
pertinent to such a motion by rule 56. (emphasis added)
3A Wash. Prac., Rules Practice CR 12 (6th ed.), Washington Practice Series TM,
August 2017 Update, CR 12. Defenses and Objections, (b) How Presented.
Here, the state law is the federal law.
... if a state law “holds that a particular state action violates state law because
it violates a parallel provision of federal law, then the Supreme Court has
power to review the case [because] the state law decision in such a case is not
independent of federal law.”

2 WA Rule CR 12(b)(6) is similar but not identical to the Federal Rule. However, the
conversion rule was identical to the Federal Rule prior to 2007 when the federal rule
was restyled - moving the conversion rule to Rule 12(d) and changing the wording
slightly^- “shall be” changed to “must.”

4
Justice O’Connor, Our Judicial Federalism, 35 Case W. Res. L. Rev. 1, 5-6 (1884)
PERTINENT CONSTITUTIONAL AND STATUTORY PROVISIONS
42 U.S.C. § 1983 - Civil Action for Deprivation of Rights, provides in relevant part:
Every person who, under color of any statute, ordinance, regulation, custom, or
usage, of any State ... subjects, or causes to be subjected, any citizen of the United
States ... to the deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action at law, suit
in equity, or other proper proceeding for redress.

Fifth Amendment due process through the Fourteenth Amendment.

INTRODUCTION AND STATEMENT OF THE CASE
The issues presented in this case is whether or not: 1) a conversion from CR
12(b)(6) to CR 56 was legitimate or a fraud; and based on the conversion, was
Corrigan afforded due process under the CR 12(b)(6) conversion rules.
On April 22, 2011, Corrigan was custodially arrested for speeding (civil) and
failure to stop (criminal).3 The speeding charge was dismissed. After a criminal trial
on September 2, 2011, Corrigan was found guilty of failure to stop for a police officer.
That conviction was overturned on appeal June 20, 2012. On March 25, 2013,
Corrigan filed a 42 U.S.C. § 1983 Civil Rights action relating to his arrest for speeding
and failure to stop for a police officer.

3 Corrigan stopped for a marked police vehicle but refused to stop for an unmarked
police vehicle.

5
On July 2, 2013, the State refiled charges of failure to stop for a police
officer,4and on November 12, 2013, the State found Corrigan guilty of failure to stop
for a police officer. Corrigan’s § 1983 action was dismissed on December 10, 2013, in
part due to the state’s re-conviction. Corrigan appealed to the Ninth Circuit, but the
Ninth Circuit denied it,.finding the,appeal “sp_insubstantial_as_to not warrant further _
review.”
On September 15, 2016, Corrigan brought suit in Kittitas County Superior
Court against certain defendants. In that suit, he asserted a 42 U.S.C. § 1983 claim
for retaliatory prosecution, abuse of process, malicious prosecution, and negligence.
The case was removed to federal court.
In federal court Corrigan filed an amended complaint, which asserted only state
law claims. Corrigan moved to remand the case, and the federal court remanded to
Kittitas County Superior Court for lack of federal jurisdiction.
On April 23, 2018, defendants moved to dismiss Corrigan’s amended complaint
pursuant to CR 12(b)(6). The trial court agreed with the defendants’ arguments and
granted their motions for dismissal. (App 11 and App 13) Corrigan timely appealed
to Division Three of the Court of Appeals (COA) pursuant to the CR 12(b)(6)
dismissal.

4 Over one year after appeals court overturned his conviction.

6

The Washington COA dismissed the complaint on summary judgment
grounds. (App. 1) Corrigan motioned for reconsideration because the decision of the
COA was a complete surprise and could not have been reasonably anticipated from
prior decisions. (App. 18) The COA denied the motion for reconsideration. (App. 10)
Washington State.Supreme Court denied review. (App. 15)

REASONS FOR GRANTING THE WRIT
I.

BLACK LIVES MATTER

Introduction.
The apathy of the judicial system regarding civil rights litigation has
contributed directly to the justifiable anger of many people sympathetic to the Black
Lives Matter movement.
A. U.S. Supreme Court - Heck v. Humphrey5
In Heck this Court held that a state prisoner cannot bring a § 1983 suit for
damages where a judgment in favor of the prisoner would “necessarily imply the
invalidity of his conviction or sentence.” This action created significant and
continuing litigation: 1) what types of claim would imply the invalidity of the
conviction; 2) a later holding that false arrest claims accrue when “the claimant
becomes detained pursuant to legal process;” 3) when an action concerns conditions
or fact of confinement but does not challenge conviction; and 4) the circuit courts are

5 Heck v. Humphrey, 512 U.S. 477 (1994).

7
split on whether Heck applies when habeas corpus is no longer available. See Police
Misconduct: Law and Litigation, 3d Edition, © 2015 Thomson Reuters, § 1:6 October
2018 Update. In 2010 there were seven circuits (Second, Fourth, Sixth, Seventh,
Ninth, Tenth, and Eleventh) that determined that a prisoner unable to pursue habeas
was not barred by Heck. Four circuits (First, Third, Fifth, and Eighth) remained
steadfast waiting for clear direction from this Court.6
This split started when the First Circuit (1998) determined that Heck did not
bar litigation when habeas was not available and the Seventh Circuit determined
that Heck did bar even when habeas was not available (1998).7 It is now 2020 and
this Court has not healed the conflict for over twenty years - to the ever growing
Heck body of case controversy — and the apathy of this Court to Black Lives Matter /
civil rights issues.
B. Ninth Circuit Court - Brooks v. City of Seattle*
Malaika Brooks, a seven-month pregnant woman of color, was stopped in Seattle
for speeding, refused to sign her traffic ticket, hauled out of her vehicle, eventually
tased three times within a minute and forced to kiss the pavement — by the then
three Seattle Police Department male officers involved in the altercation. After trial,
a 3-panel appellate hearing, and an en banc review by the Ninth Circuit, it was held

6 Cohen v. Longshore, 621 F.3d 1311,1315-1317 (10th Cir. 2010)
7 Id., at 1315-1316.
8 Brooks v. City ofSeattle, 599 F.3d 1018 (9th Cir. 2010)

8

that Brooks alleged valid Fourth Amendment violations, but that the officers were
entitled to qualified immunity.9
That is not rational. Our laws are supposed to be constitutional. No
constitutional law would allow police officers to yank a person (of color or not, of
.gender or not, of pregnant or not) out of their vehicle and beat the crap out of them___
— just because they would not sign a ticket — a ticket that simply claims its just an
“Acknowledgement of Receipt.” Where is the compelling state interest in that law? If
it was so compelling in 2010, why isn’t the state still requiring it?10
It is interesting to note that the three male police officers receiving qualified
immunity had no probable cause to arrest Brooks in the first place — as Judge Berzon
correctly pointed out to her colleagues in her justifiably, scathing 3-panel dissent.
C. The Actions of The Court of Appeals is a Fraud on the Court
The Washington Appellate Court claimed that there was a conversion from a
Rule 12(b)(6) motion to a Rule 56 motion. This is plain error but also a fraud on the
court.11 There was no conversion and the appellate court knew it. The trial court
already determined that because of his granting a stay of discovery, the only option

9 Evidently, the idea of beating up pregnant was not firmly established in the police
lexicon.
10 The state finds it inconvenient because tickets are printed out on their computer
and are now simply handed to the violator — a situation the state does not consider a
problem.
11 See In Bulloch v. United States, 763 F.2d 1115, 1121 (10th Cir. 1985), the court
stated "Fraud upon the court is fraud which is directed to the judicial machinery
itself. . . thus where the impartial functions of the court have been directly
corrupted." [Emphasis added]

9
for the defendants at that time was a Rule 12(b)(6) motion. There would not be a
--

conversion — plaintiff, defendants, and the court were all on that same page. The trial
court judge even went so far as to immortalize that concept:
I do note that there was a motion to stay discovery pending the motion
to dismiss. Judge Federspiel, by order dated April 2, 2018, indicated that
discovery would.be,stayed so long as the Court was able to rule on the CR 12
motion without resorting to a CR (unintelligible), and when additional facts
remain to be supplemented, the Court can convert a CR 12 motion to a CR 56
summary judgment if necessary. The Court finds in this case that there
has not been a supplementation of facts in this case, that this matter
was actually properly brought before this Court on a CR 12 motion.
[Emphasis added]
Verbatim Report of Proceedings from an Audio File, June 18, 2018, pp. 14-15. It is up
to the discretion of the court whether or not to ignore extra-pleading materials
submitted to the court12 — but in this case there were no “extra-pleading materials”
and the court stated that “there has not been a supplementation of facts.” The trial
court did not abuse its discretion — but the COA did by fraudulent claiming a
conversion took place.
The appellate court denied Corrigan due process of law by:
•

claiming conversion without any factual support;

•

providing no opportunity to respond;

•

denying discovery;

•

ignoring Rule on Appeal (RAP) 9.12 - requiring the appellate court on summary
judgment to consider only evidence and issues called to the attention of the trial

12 See Swedberg v. Marotzke, 339 F.3d 1139, 1142 (9th Cir. 2003).

10
court — as there was no evidence or issues addressed other than under the CR 12
motion; and
•

ignoring RAP 12.1 Basis For Decision - appellate court will decide a case only on
the basis of issues set forth by the parties in their briefs - or notify the parties if

__ they are considering other issues so that the parties will have an opportunity to
respond.
The Washington appellate court is showing contempt for the conversion rules
when dealing with civil rights matters. First of all there was no conversion. Secondly,
if a conversion did take place, the appellate court is completely ignoring the process
that is due when a conversion does take place — a violation of Corrigan’s Fifth
Amendment Rights to due process.
Conclusion
Admittedly, the above instances are not horrific examples of police abuses or
government overreach. Black Lives Matter is not just about police brutality and the
death of men and women of color. Its also about the apathy of the courts that do not
consistently curb police enthusiasm and/or prejudice and basically end up condoning
outrageous police/government actions. This is costing lives unnecessarily — mostly
black. The courts have a responsibility to take seriously civil rights issues that are
legitimately before the court and not minimize the issues represented by: 1) a
Supreme Court 20-year failure to heal a seemingly “yea” or “nay” circuit split; 2)
qualified immunity for tasing a woman in her 7th month pregnancy; and 3) a

11
fraudulent conversion with its accompanying shameful Fifth Amendment violations
related to it.
II.

COA CLAIMED CONVERSION IS AN ABUSE OF DISCRETION
As pointed out above, the trial judge specifically stated:

.... The Court finds_in this case.that._there_.has .not been a supple­
mentation of facts in this case, that this matter was actually properly
brought before this Court on a CR 12 motion, (emphasis added)
Verbatim Report of Proceedings from an Audio File, June 18, 2018, pp. 14-15.
Although this conversion, procedure is mandatory, not discretionary,
conversion does not occur automatically. The court retains the discretion to
ignore any extra-pleading materials that the parties have submitted and
instead to resolve the motion solely on the basis of the pleading itself, in which
case no conversion is necessary. In fact, even when the court fails to expressly
exclude the extra-pleading materials, a conversion may not be necessary if the
materials were, in fact, ignored by the court or otherwise irrelevant to the
court’s resolution of the motion, (citations omitted)'
Federal Civil Rules Handbook, Baicker-McKee, Janssen, Corr, © 22019 Thomson
Reuters/West, Rule 12(d)-Presenting Matters Outside the Pleadings, pages 481-482.
Here we have the assurance of the trial court that there has been no extra­
pleading materials and that the CR 12 motion was properly before the court. The
COA abused its discretion by claiming otherwise.

12
III.

DENIED FIFTH AMENDMENT RIGHT TO DUE PROCESS OF LAW

The COA abused its discretion by conversion. However, the conversion comes
with a process that must be followed for a fair trial.13 Corrigan was entitled to the
protection of the Fifth Amendment to the U.S. Constitution. Due process requires
that when a Rule 12(b)(6) motion is converted to a Rule 56 motion - there must be at
a minimum:
•

Notice of conversion;14

• Adequate time for discovery;15 and
•

Opportunity to both be heard and to present further materials in support of
their positions on the motion:”16

The COA by sua sponte converting the CR 12(b)(6) to a CR 56 bypassed Corrigan’s
right to due process der the Fifth Amendment to the U.S. Constitution.

13 See FRCP Rule 12(d)
14 Parada v. Banco IndustrialDe Venezuela, C.A., 753 F.3d 62, 68 (2d Cir. 2014)
15 Celotex Corp. v. Catrett, 477 U.S. 317, 322 (1986)
16 U.S. exrel. Customs Fraud Investigations, LLC. V. Victaulic Co., 839 F.3d 242,
251 (3rd Cir. 2016)

13
\
..’ - -T. :r

CONCLUSION
For the foregoing reasons, the Court should grant a writ of certiorari.

Respectfully submitted,

JOHN L. CORRIGAN, Sl^>
51 N.E. Blomlie Rd / Box 1846
Belfair, WA .98528
253.350.0790
jcorrigan25@outlook.com
September 28, 2020

